<html>
<title> - ONDCP'S FISCAL YEAR 2011 NATIONAL DRUG CONTROL BUDGET: ARE WE STILL FUNDING THE WAR ON DRUGS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
  ONDCP'S FISCAL YEAR 2011 NATIONAL DRUG CONTROL BUDGET: ARE WE STILL 
                       FUNDING THE WAR ON DRUGS?

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

                           Serial No. 111-137

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-125                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
DIANE E. WATSON, California          DAN BURTON, Indiana
JIM COOPER, Tennessee                MICHAEL R. TURNER, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FORTENBERRY, Nebraska
PETER WELCH, Vermont                 AARON SCHOCK, Illinois
BILL FOSTER, Illinois
MARCY KAPTUR, Ohio
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 14, 2010...................................     1
Statement of:
    Carnevale, John, president, Carnevale Associates, LLC; Ethan 
      Nadelmann, executive director, Drug Policy Alliance; Vanda 
      Felbab-Brown, fellow, the Brookings Institution; and Peter 
      Reuter, professor, School of Public Policy and Department 
      of Criminology, University of Maryland.....................    41
        Carnevale, John..........................................    41
        Felbab-Brown, Vanda......................................    73
        Nadelmann, Ethan.........................................    64
        Reuter, Peter............................................    88
    Kerlikowske, Gil, Director, Office of National Drug Control 
      Policy.....................................................     8
Letters, statements, etc., submitted for the record by:
    Carnevale, John, president, Carnevale Associates, LLC, 
      prepared statement of......................................    44
    Felbab-Brown, Vanda, fellow, the Brookings Institution, 
      prepared statement of......................................    75
    Kerlikowske, Gil, Director, Office of National Drug Control 
      Policy, prepared statement of..............................    11
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Nadelmann, Ethan, executive director, Drug Policy Alliance, 
      prepared statement of......................................    66
    Reuter, Peter, professor, School of Public Policy and 
      Department of Criminology, University of Maryland:
        Prepared statement of....................................   105
        Prepared statement of Ms. Pacula.........................    89
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   119


  ONDCP'S FISCAL YEAR 2011 NATIONAL DRUG CONTROL BUDGET: ARE WE STILL 
                       FUNDING THE WAR ON DRUGS?

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Tierney, Foster, Jordan, 
and Issa (ex officio).
    Staff present: Jaron R. Bourke, staff director; Claire 
Coleman, and Charles Honig, counsels; Jean Gosa, clerk; Leneal 
Scott, IT specialist; Charisma Williams, staff assistant; Adam 
Fromm, minority chief clerk and Member liaison; Stephanie 
Genco, minority press secretary and communication liaison; 
Ashley Callen, minority counsel; and Molly Boyl, minority 
professional staff member.
    Mr. Kucinich. Thank you for being here. The committee will 
come to order.
    The Subcommittee on Domestic Policy of the Committee on 
Oversight and Government Reform is now in order. The hearing 
will examine the priorities and objectives of the Office of 
National Drug Control Policy under the Obama administration and 
how those goals are reflected in the 2011 Fiscal Year National 
Drug Control Budget.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have five 
legislative days to submit a written statement or extraneous 
materials for the record.
    We are here today to evaluate the Office of National Drug 
Control Policy's 2011 budget, the first drug budget formed 
under the Obama administration. President Obama and Director 
Kerlikowske have said that the Nation's drug policy should be 
guided by examining the evidence of what works. To that end, 
they have suggested that drug abuse should be treated as a 
public health issue instead of a criminal justice issue.
    Director Kerlikowske has rightfully called for an end to 
the war on drugs. This is an obviously important shift from the 
previous administration. The question to be addressed at this 
hearing today is whether, despite this important rhetorical 
shift, the ONDCP is in fact engaging in employing an honest 
assessment of what works and what does not work in U.S. drug 
policy.
    We will ask: Does the budget support programs of 
demonstrated effectiveness for reducing drug use and its 
harmful health consequences here in the United States? Or does 
the budget continue to fund a war on drugs that is unsupported 
by science and research?
    It is unfortunate that ONDCP was not able to release this 
year's National Drug Control Strategy or budget summary prior 
to this hearing. Not only have they missed by over 2 months the 
February 1st statutory deadline mandated by the 2006 
reauthorization, but it has frustrated the subcommittee's 
ability to conduct oversight.
    Without the strategy, we will have to speculate to some 
degree about the administration's approach from the budget 
highlights and other drug control agency budget agency 
documents.
    From the information available, it is clear that at least 
in some areas, we are beginning to see drug policy decisions 
based on science and evidence, instead of politics. This is 
especially true in the area of treatment in international 
source country programs. The increased funding for treatment 
programs and commitment to funding addiction screening is 
falling short of the goal of providing treatment for all who 
need it, and reflects the recognition that handling drug 
addiction as a medical problem is most effective.
    On the international side, while the budget continues to 
drastically overspend on failed interdiction policies, at least 
we are finally seeing a shift in spending in source country 
programs, focusing less on the military side of drug 
enforcement and crop eradication, and more on providing 
assistance to strengthening the rule of law, democratic 
institutions and addressing border security.
    The budget proposes funds for new demand reduction programs 
in source countries that have drug problems largely as a result 
of supplying the United States with drugs. These are all 
positive steps that support evidence-based and cost-effective 
drug policy. But if the administration truly acknowledges the 
plethora of research demonstrating that treatment and evidence-
based prevention are more effective at reducing drug use than 
law enforcement interdiction and source country eradication, 
then why is our drug budget still so lopsided in favor of less 
effective approaches?
    If we compare the current budget request for supply side 
and demand side programming to the previous administration's 
last drug budget in 2009, the difference in spending for supply 
reduction in the upcoming fiscal year is only one-half of 1 
percent. The 2011 budget still spends at least two-thirds of 
the total drug budget on supply reduction programs because the 
drug budget still fails to comprehensively account for all 
Federal drug control expenditures as required by the 2006 ONDCP 
Reauthorization Act. Despite the subcommittee and 
congressionally ordered reviews and repeated calls for ONDCP to 
follow the law, the misguided and unsupported orientation to 
supply side efforts is actually more.
    The drug budget as calculated now contains only those 
expenditures aimed at reducing drug use, rather than those 
associated with the consequence of drug use. For example, the 
budget fails to account for the billions of dollars a year 
spent on prosecuting and incarcerating drug offenders. Congress 
has clearly spoken on this issue and we hope that this 
administration will work quickly to reintroduce a budget 
methodology that actually communicates to Congress and the 
public the levels of public spending on drug policy.
    I am going to ask unanimous consent to just put the rest of 
my statement in the record.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5125.001

[GRAPHIC] [TIFF OMITTED] T5125.002

[GRAPHIC] [TIFF OMITTED] T5125.003

    Mr. Kucinich. Mr. Jordan, you are recognized.
    Mr. Jordan. Thank you, Mr. Chairman.
    It is good to have the Director with us again. I appreciate 
the Director's response to a letter that many of us had sent to 
him and the fairly detailed response that he sent back to us.
    Mr. Kucinich, I want to thank you for holding this hearing.
    Our Nation continues to face a drug problem that takes 
lives, brings about violence and tears apart communities and 
families. We need to take every opportunity and make every 
effort to eliminate this problem with an approach that focuses 
both on keeping drugs from entering the country in the first 
place and curbing addiction here at home.
    The Office of National Drug Control Policy has an extremely 
difficult task in coordinating many different agencies to 
address issues at home and abroad. The ONDCP budget must strike 
a balance between funding programs to tackle both international 
and domestic supply reduction, demand reduction at home, drug-
related violence along our borders and in our streets, 
addiction treatment and health-related issues stemming from 
abuse of both illicit and prescription drugs, and enforcement 
of our drug laws and punishment of those who are in violation.
    Regional disparities mean different drugs are more readily 
available to be bought, sold and abused in different States, 
compounding the challenge of creating one budget and one 
strategy for the entire country.
    For example, methamphetamines are a growing problem, 
especially in rural areas all over the country, and I have seen 
the detrimental effects of this drug in our home State of Ohio. 
My colleagues from districts along the southwest border have 
seen increases in spillover violence as Mexican drug cartels 
have become more brazen and moved operations further north 
toward Texas, New Mexico, Arizona and California.
    The many domestic and international factors that contribute 
to our drug problem necessitate a strategy that addresses both 
supply and demand reduction initiatives, eradication of drug 
crops in source countries, interdiction, domestic anti-drug 
campaigns and treatment programs must all be a part of a 
successful national strategy.
    The last time Director Kerlikowske testified before this 
subcommittee, he had been on the job for only a few days. As a 
result of our budget process, during his first year at ONDCP, 
the Director operated largely under the framework of a budget 
and strategy prepared by the Bush administration. I especially 
look forward to hearing about the Director's experiences during 
his first year at ONDCP and what his expectations are for the 
future of the Office during the Obama administration, including 
what changes to the budget he is seeking and how the national 
strategy will change to reflect the goals of the current 
administration.
    I am only sorry that we could not have postponed this 
hearing until the ONDCP national strategy had been released, 
but hope that we may have another opportunity to speak with the 
Director once the strategy has been finalized.
    With that, Mr. Chairman, I yield back the time.
    Mr. Kucinich. I thank Mr. Jordan.
    Mr. Foster, do you have an opening statement?
    Mr. Foster. I would just like to make one brief comment. 
When you are optimizing a budget, it is very important to 
understand what it is you are optimizing for. And I think that 
the starting point for this discussion should be what is it 
that we are optimizing for. It seems to me that it ought to be 
something like the number of man years lost to drug abuse in 
this country. And then you can look at the entire range of 
things that we spend money on and find out which contributes 
most to that.
    So I will be very interested in how you set up the 
framework for optimizing all of our expenditures.
    Thank you. I yield back.
    Mr. Kucinich. Thank you very much.
    I want to introduce Mr. Kerlikowske, who is the sole 
witness on the first panel. He is the Director of the Office of 
National Drug Control Policy. In this capacity, Mr. Kerlikowske 
coordinates all aspects of Federal drug control programs and 
implementation of the President's national drug control 
strategy.
    Mr. Kerlikowske brings nearly four decades of law 
enforcement and drug policy experience to the position, most 
recently serving 9 years as chief of police for the Seattle 
Police Department. He also served as Deputy Director for the 
U.S. Department of Justice Office of Community Oriented 
Policing Services, and president of the Major Cities Chiefs 
Association.
    I want to thank you for appearing before the subcommittee 
today. Mr. Kerlikowske, it is the policy of the Committee on 
Oversight and Government Reform to swear in all witnesses 
before they testify. I would ask that you rise and raise your 
right hand.
    [Witness sworn.]
    Mr. Kucinich. Thank you very much.
    Let the record reflect that the witness answered in the 
affirmative.
    Mr. Kerlikowske, I would ask that you give a brief summary 
of your testimony and to keep the summary under 5 minutes in 
duration. Your complete written statement will be included in 
the record of the hearing, and I ask that you begin.
    I am just going to say that rather than to trouble future 
witnesses, staff should be instructed to make sure that every 
witness is prepared to testify, including demonstrating to them 
the appropriate use of the microphone.
    Thank you very much. You may proceed.

STATEMENT OF GIL KERLIKOWSKE, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Kerlikowske. Thank you, Mr. Chairman and Ranking Member 
Jordan for the opportunity to testify. And I am happy to return 
back to the committee. I was only on the job a few days, and it 
has been an exciting year, quite frankly.
    I look forward to the discussion. I look forward to 
answering your questions.
    The Obama administration understands that addiction is a 
disease. Prevention, treatment and law enforcement must be 
included as part of a comprehensive strategy to stop drug use, 
to get help to those who need it, and to ensure public safety.
    The public health consequences of drug use are enormous and 
the public safety impact of drug use is equally dramatic. Drug 
overdoses now outnumber gunshot deaths in America. They are 
fast approaching motor vehicle crashes as the leading cause of 
accidental death.
    Since I last appeared before the committee, I have been 
focused on drawing attention to a series of problems. One in 
particular is drugged driving. Results from the Monitoring the 
Future Study indicate that in 2008, more than 10 percent of 
high school seniors admitted to having driven a vehicle after 
smoking marijuana in the 2-weeks prior to the survey. This is a 
troubling statistic that is consistent with data from the 
Department of Transportation study that was released in 
December last year.
    I have also been focused on raising awareness about 
prescription drug abuse. Prescription drug abuse harms the 
people who misuse these pills, as well as those close to them. 
While we must ensure access to medications that alleviate 
suffering, it is also vital that we do all we can to curtail 
diversion and abuse of pharmaceuticals.
    Moreover, between 1997 and 2007, treatment admissions for 
prescription painkillers increased more than 400 percent. These 
issues, as well as a renewed focus on the importance and 
effectiveness of smart prevention, are reflected in the soon to 
be released 2010 National Drug Control Strategy. The inaugural 
strategy commits the Obama administration to reduce drug use 
and its consequences. It is based on common sense, sound 
science, and practical experience.
    The President's Fiscal Year 2011 National Drug Control 
Budget lays the foundation for our efforts. It contains 
requests totaling $15\1/2\ billion, an increase of $521 million 
over the fiscal year 2010 enacted level. The resources are 
categorized around five major functions: substance abuse 
prevention, substance abuse treatment, domestic law 
enforcement, interdiction, and international partnerships. And 
overall, the budget request for prevention and treatment 
represents a 6\1/2\ percent increase over fiscal year 2010 
enacted level.
    The budget also includes $151.3 million for the five 
priorities established by ONDCP and our Federal partner working 
together as part of the Demand Reduction Interagency Work 
Group.
    Let me summarize those five priorities: creating a national 
community-based prevention system to protect adolescents; 
training and engaging the primary healthcare system to 
intervene in the emerging cases of drug abuse; expanding and 
improving integrating addiction treatment into the Federal 
healthcare systems; developing safe and efficient ways to 
manage drug-related offenders; and creating a community-based 
drug monitoring system.
    However, our renewed focus on prevention and treatment does 
not come at the expense of effective law enforcement. We are 
committed to a balanced approach that places as much emphasis 
on enforcement as it does on treatment and prevention. Over 
$3.9 billion is included in the fiscal year 2011 budget request 
for domestic law enforcement efforts, an increase of $73.8 
million over the fiscal year 2010 level.
    With the forthcoming strategy and added resources, we will 
take a comprehensive and balanced approach, combining tough but 
fair enforcement with robust prevention and treatment efforts, 
and that we will be successful in stemming both the demand for 
and supply of illegal drugs in our country.
    I look forward to continuing to work with the committee's 
members to address these challenging and important issues. I 
recognize that the many things ONDCP and my executive branch 
colleagues want to accomplish would not be possible without the 
support of the Members of Congress.
    Thank you very much.
    [The prepared statement of Mr. Kerlikowske follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.004
    
    [GRAPHIC] [TIFF OMITTED] T5125.005
    
    [GRAPHIC] [TIFF OMITTED] T5125.006
    
    [GRAPHIC] [TIFF OMITTED] T5125.007
    
    [GRAPHIC] [TIFF OMITTED] T5125.008
    
    [GRAPHIC] [TIFF OMITTED] T5125.009
    
    [GRAPHIC] [TIFF OMITTED] T5125.010
    
    [GRAPHIC] [TIFF OMITTED] T5125.011
    
    [GRAPHIC] [TIFF OMITTED] T5125.012
    
    [GRAPHIC] [TIFF OMITTED] T5125.013
    
    [GRAPHIC] [TIFF OMITTED] T5125.014
    
    [GRAPHIC] [TIFF OMITTED] T5125.015
    
    [GRAPHIC] [TIFF OMITTED] T5125.016
    
    [GRAPHIC] [TIFF OMITTED] T5125.017
    
    [GRAPHIC] [TIFF OMITTED] T5125.018
    
    [GRAPHIC] [TIFF OMITTED] T5125.019
    
    [GRAPHIC] [TIFF OMITTED] T5125.020
    
    Mr. Kucinich. Thank you very much, Mr. Kerlikowske.
    All of our witnesses who will address this committee today 
agree that the previous administration's supply side programs 
were not effective in stopping supply or consumption of drugs 
in the United States. Given the evidence, Mr. Kerlikowske, why 
does supply side reduction programming continue to receive so 
much budget emphasis?
    Mr. Kerlikowske. I think that the supply side emphasis is 
important for a host of reasons, whether we talk about 
eradication, whether we talk about our international partners 
and where drugs are flowing, no longer America being just the 
sole point of destination. For example, cocaine. As America's 
appetite has diminished for cocaine, the appetite in the U.K. 
and Europe for cocaine increases.
    So these supply side interdiction efforts, international 
partnerships, helping to reduce the use of drugs and the amount 
of drugs, even in the most impoverished nations, as was 
highlighted in Sunday's New York Times Magazine, are critically 
important and we have to be a strong partner with them.
    Mr. Kucinich. Well, where is the evidence, though? I mean, 
describe to this committee specifically with statistics what 
evidence you have that this approach has been effective? You 
get a lot of money. You put more money in the budget. Tell me 
about the effectiveness. I want you to attest to the 
effectiveness of the last administration's supply side 
programs.
    Mr. Kerlikowske. Colombia. I would cite Colombia. There is 
a level of safety and security in the country. There is 
increased productivity among the citizens.
    Mr. Kucinich. That is anecdotal. Do you have any specific 
statistics that you can point to?
    Mr. Kerlikowske. I would tell you that everything I know 
after four decades in law enforcement tells me that we have to 
have a balanced approach.
    Mr. Kucinich. I appreciate your experience. You have served 
the country well and you have served the city of Seattle. I am 
familiar with your service there. Give me some numbers.
    Mr. Kerlikowske. I would give you the numbers that are 
probably most effective when it comes to the reduced amount of 
violence that has occurred in some of these other countries. 
For instance, Colombia. You certainly can't cite Mexico at that 
point when it is reduced levels of violence, but I think in the 
coming years with the strategy that President Calderon has done 
and the support of the U.S. Government, that you will see 
increased safety and security. And that can be reflected in 
violent crime numbers in that country also. I know the 
devastation that the drugs cause.
    Mr. Kucinich. In Mexico? Really?
    Mr. Kerlikowske. Yes.
    Mr. Kucinich. Tell me more.
    Mr. Kerlikowske. I have had in less than a year my third 
trip to Mexico. I have had three and now soon to be followed by 
four, trips to the southwest border. I think that they are 
making progress in taking on these transnational organized 
crime and drug cartels.
    Mr. Kucinich. So what parts of your budget are the most 
cost-effective in reducing illicit drug use?
    Mr. Kerlikowske. I think that is the question that everyone 
would like to see answered.
    Mr. Kucinich. That is what I am asking you, and you are the 
Director. Do you want to give it a try?
    Mr. Kerlikowske. I certainly am happy to give it a try. I 
would tell you that it is the money that goes into prevention 
and treatment, because we know that is effective. But I would 
also tell you that it is extremely difficult, and I think that 
will be buttressed by other witnesses, to get your head and 
your arms around what the Federal drug budget is and what it 
means.
    If people tell me that money that goes to law enforcement 
has nothing to do with reducing demand, I would tell them they 
are wrong, but that has been a debate that has gone on. Trying 
to segregate this drug budget into a supply only or demand 
only, and which one is more effective, has stymied the 
economists and the researchers and the academics for many, many 
years, and continues to do so, but we are making some progress 
at trying to refine better measures.
    Mr. Kucinich. So can you tell the subcommittee what are the 
most cost-effective approaches that you are using?
    Mr. Kerlikowske. The most cost-effective approaches would 
be in prevention, and the most cost-effective approaches would 
be in treatment.
    Mr. Kucinich. That is generally speaking, though. Can you 
be specific about what your strategy is with respect to 
employing cost-effective approaches?
    Mr. Kerlikowske. Sure. The cost-effective approach would be 
the $151 million that the President has requested to do 
something called Prevention Prepared Communities.
    Mr. Kucinich. As compared to what?
    Mr. Kerlikowske. As compared to the Drug-Free Communities 
that we currently funded, about $125,000. Those are positive 
programs, but Prevention Prepared Communities are ones that 
have greater amount, or will if they are enacted, will have 
greater amounts of money going to communities using evidence-
based, science-based prevention programs. And for every dollar 
that we can invest in prevention and who we can prevent from 
becoming a drug addict or a user of drugs that causes a drain 
on society, and a horrible problem to their family, that makes 
sense, Mr. Chairman.
    Mr. Kucinich. Thank you, Director.
    The Chair recognizes Mr. Jordan for 5 minutes. You may 
proceed.
    Mr. Jordan. Thank you, Mr. Chairman.
    Of your $400 million budget, what percentage, Director, is 
supply oriented? What percentage is demand-oriented?
    Mr. Kerlikowske. I am happy to tell you.
    Mr. Jordan. You said both are important. Is it 50/50? But 
then you also talked about prevention and treatment. Does it 
lean more to that direction?
    Mr. Kerlikowske. It is much more on supply. The moneys are 
much more on supply. But I would go back to that earlier 
statement that it is pretty hard to get your head around 
exactly what the supply problem and what the supply amount is. 
But it does lean more heavily toward the supply interdiction 
and enforcement.
    Mr. Jordan. OK. Let me ask just on the broad question, and 
you can take as much time as you want, and I will try to make 
this my only one, although we typically have a habit of 
interrupting you as you go along.
    Americans are concerned about drug use, drug abuse. They 
are concerned about the link of the drug trade with gang 
activity, particularly folks in the Southwest, but I get these 
comments in Ohio as well when I am out and about our District, 
the link with gang activity, potentially terrorist activity, 
illegal immigration.
    Give this committee an idea of how your $400 million 
budget, how you work with Justice, DEA, Border Patrol? Because 
again, I also talk with a lot of folks back home who say, we 
spend money on a lot of things. It seems like there is a lot of 
overlap in it.
    How does it work? And with the other agencies who also have 
a big say in that same kind of thing. Because as I talk to 
folks back home, families and business owners, that is kind of 
their general concern. When they think about the drug things 
they read about in the paper and the things they see on their 
nightly news, that seems to be their concern.
    So tell me how that works and how it relates. And 
specifically, I know staff has pointed out that the Justice 
Department is looking at cutting the Southwest Border 
Prosecutor's Initiative. So kind of tie that in together if you 
can and I will attempt not to interrupt you and let you talk.
    Mr. Kerlikowske. OK. We actually have an incredibly good 
working relationship. There were agencies that had not been 
over to ONDCP in a pretty good number of years, for instance, 
representatives from the Department of Education. We 
established very quickly, and some of it went on clearly before 
I was even confirmed, we established an interagency work group, 
135 other Federal partners, high level officials within the 
Department of Justice, HHS, etc., to attack this stuff 
comprehensively and to look at it in a very balanced way.
    And bringing the Department of Justice, for instance, we 
meet almost every month, bringing the Department of Justice, 
whether it is DEA, the Department of Homeland Security groups 
that are all affected. For instance, the example would be the 
Southwest Border Strategy. This is a strategy that encompasses 
all of these different activities and makes sure that everyone 
is playing well in the sandbox, that people are cooperating, 
that people are supporting each other and that people aren't 
just looking toward their own very narrow lane.
    And I have seen great success in the effect of attempting 
to and working toward reducing the number of guns going into 
Mexico, looking at bulk cash, but also the increases along the 
southwest border where we have actually stopped more drugs from 
coming in.
    As you know, we have a lot of other issues on our plate. 
Right now, I think Governor Strickland has put together in Ohio 
a task force on prescription drugs. We know that the amount of 
deaths in this country is being spiked by prescription drugs. 
Those aren't being manufactured in another country. Those 
aren't being smuggled in. We know that methamphetamine 
laboratory seizures have increased, particularly in the last 
year. California is still the No. 1 preparer of 
methamphetamine. A lot of that is not being smuggled in from 
another country. It is being manufactured right here.
    We have to reduce demand within the United States. We have 
to prevent young people from doing this. And we have to make 
sure that every dollar, every very important tax dollar that is 
spent is used in the most effective manner.
    And that is the terrific part of this is being able to 
bring all of those equities together to say what is important, 
how do we do it, and how do we make sure that we are not being 
redundant and overlapping. And I think we are making some great 
progress.
    Mr. Jordan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you very much, Mr. Jordan.
    The Chair recognizes Mr. Foster. Thank you.
    Mr. Foster. I wonder if you could help me at describing 
what efforts have been made to quantify the relative cost-
effectiveness of the various anti-drug programs?
    Mr. Kerlikowske. One of the things that is in the strategy, 
and there are certainly no secrets in the President's strategy, 
and it will be released very quickly. But one of the chapters 
deals with the lack of adequate measures, numbers, metrics that 
have existed and continue to exist; also, the timeliness of the 
information and the data.
    So we have convened several groups to take a look at that 
and try and figure out some effective measures. We know, for 
instance, one, the number of admissions to treatment centers, 
the number of hospital emergency room admissions. We also know 
that some of this data is woefully either inadequate or late 
getting there.
    So we brought these folks together and we have asked them 
to help us work together to design a series of measures that 
cut across the medical community, the law enforcement 
community, for instance, who comes into the different jails in 
this country and what are the effects of drugs that they may be 
under? And these are all going to be important measures.
    Mr. Foster. All right. But is the intention to put in place 
something where you can say, OK, we can buy one more helicopter 
for this country and it is going to result in this many fewer 
hospital admissions? Or any attempt to try to track it all the 
way through?
    Mr. Kerlikowske. I think a lot smarter people than I have 
worked hard at trying to do that, to say what is the most 
effective use? Is it in the media campaign to keep young 
people? Is it in the buy more aerial eradication in another 
country, etc.?
    I think President Truman, when he talked about having all 
the economists lined up end to end, said, wouldn't that be a 
beautiful sight? And I have had great difficulty understanding 
some of these issues myself. We are working hard to try and do 
that. I doubt if we will ever be to a point in this country 
where we can say that X amount of money going here to this 
country will result in a safer society within the United 
States. I just don't think we will get there. I think we will 
move closer, but we are not there.
    Mr. Foster. But even a very imperfect analysis can catch an 
error. If you are making a mistake by a factor of 10 in where 
you put your money, then you don't need a perfect analysis to 
identify that you should shift your money.
    Another area that concerns me is research and development 
and the balance of effort. We are making tremendous progress in 
understanding the effects of drugs in the brain. And it is not 
at all unthinkable that within 10, 20, 30 years, we will have 
medical things that reverse addiction. And I think that this is 
obviously a huge payoff R&D.
    I was wondering, do you also balance the research and 
development? The two research and development things are, first 
off, biomedical R&D and the other one is advanced screening 
methods, simply just to have cheaper ways to test more people 
for a wider spectrum of drugs faster. When people are in 
programs, they are supposed to be drug-free. If it was free to 
test them automatically every 10 minutes, then that would 
actually make enforcement and keeping them in the programs 
easier. And so those two technical ways or other ways.
    How do you balance the research and development?
    Mr. Kerlikowske. I will tell you that going back to the 
last part of your question first, Screening Brief Intervention 
Referral to Treatment [SBIRT]. It essentially teaches 
healthcare professionals to ask all of their patients, 
regardless of what they are being treated for or talked about, 
to ask several questions about their alcohol and their drug 
use. And that the answers to those questions can actually lead 
to an early intervention, which is more effective and less 
costly.
    Eighty-five to 90 percent of the drug treatment research in 
the world is done by the United States, and is done through the 
National Institute of Drug Abuse. We are strong supporters of 
NIDA and the NIDA budget when it comes to this. That is why I 
think the discussion about cocaine vaccine that is being looked 
at very closely. The scans that have been done to show the 
effects of addiction on the brain, to actually show it as a 
disease, rather than a moral failure has taken us a long way 
forward.
    I think we also have a more important task, particularly in 
a role that I get to play, because I am not a scientist. I am 
certainly not an economist, but I get to tell people that 
addiction is a disease, rather than a moral failure. And once 
we start looking at it and rolling it into the primary 
healthcare, which President Obama has done, I think we will 
make further progress.
    Mr. Foster. OK. Thank you. My time is up.
    Mr. Kucinich. Thank you very much.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Thank you for holding 
this important hearing.
    I have to first start off by having an unusual one for the 
minority. I would like to thank you for a very detailed 
response you gave our committee to a letter. I seldom get to do 
that. I seldom got to do it in the last administration, so I do 
appreciate it.
    I would like to go through quickly, some of which is from 
your response. It is pretty obvious when you have a Member of 
Congress who flies in and out of San Diego every week that I 
consider what you are doing on the southwest border critical. I 
have with me Alan Birsin and a number of other people who are 
daily in touch with that.
    And I think it is critical and I certainly would hope that 
this administration will give you the resources and 
coordination, obviously, with the Mexican government to have a 
Plan Colombia on steroids, because I think otherwise the border 
violence that is spilling over in to San Diego, completely 
separate from the fundamental drug question, is going to 
represent a real threat to the security of America.
    And I think most people who don't live near the border miss 
that point, that drugs are just another name for the money that 
supports crime in a big way. Just as alcohol during 
Prohibition, it wasn't about the alcohol. It was about the 
organized crime that ultimately began threatening our country.
    Your response on Afghanistan was good, but it wasn't 
supported by my trip there. I spent 8 days over Christmas going 
through those poppy fields in western Afghanistan. Now, I 
didn't go there to see poppies, but you couldn't miss them 
since it was reported by the commanders on the ground, both 
British and Americans, that there is no eradication program. 
There is no program for eradication. And it is only just 
happenstance that people are desperate enough that they are 
growing wheat to feed their families, rather than poppies in 
some cases.
    I am pleased to say that the invasion that began, or the 
sequential group of invasions that began on some of the Taliban 
headquarters in that western region are likely to give us the 
ability to control those areas. But having said that, I was in 
areas we did control and controlled quite well, and we do 
nothing about eradication.
    So I hope in your answer you will tell us the step where 
you believe we can do something in a country where we do not 
have the support of the president, the government, or in some 
cases even regional leaders. It is very clear that Afghanistan 
has no intention whatsoever of giving up this lucrative 
sideline that does not seem to corrupt them as much as it 
corrupts all of Europe and of course has a spillover effect 
here.
    And I will tell you that when I met with the British 
general on the ground, he was much more concerned about 
American policy than I think we were.
    I would like to have you answer, though, two additional 
areas that you did not expect to hear from me. First of all, 
you mentioned prescription drugs. It does appear as though the 
previous administration, and administrations going back a very 
long time, have missed bringing to the Congress and to the U.S. 
attorneys real opportunities to take the abuse of, you 
mentioned meth, but I certainly would mention Oxycontin and 
lots of the other drugs of choice, that are, in the case of 
Florida and a number of other areas, there is very easy to find 
organized operations that appear not to be treated as 
dangerously, they almost appear to be treated as white collar. 
And you can rebut that, but that does seem to be a lot of what 
we are seeing. And people are dying from drugs that technically 
are completely controlled by us from their inception and 
distribution and so on.
    And last, one that I have never heard from your office 
before, that I have a personal concern for, having served in 
California on the Prison Industry Board, people do not come out 
of prison sober from a drug standpoint because drugs are so 
available in our prisons. And I would ask you a rhetorical 
question: If you cannot have a war on drug availability in 
Federal, State and county prisons and have it won, then how can 
we expect to win anywhere else in any other arena where the 
complete freedom of drugs is comparatively obvious?
    And that is really, you don't have to comment on all of 
them, but the last two I am particularly interested in.
    Mr. Kerlikowske. I just would make one quick comment on 
Afghanistan. I don't think anybody feels comfortable seeing 
American soldiers or the ISAF forces there among the poppy 
fields. I clearly understand, and Ambassador Holbrooke has 
taken great pains to explain to me the rationale and the 
reasons.
    I think we will make progress in the future on that issue. 
I am particularly heartened by the work we are doing with the 
Russian FSKM, their Federal drug control, because it affects 
Russia far more deeply than it affects us, and I think your 
point is excellent.
    On the prescription drug issue, I don't think it really has 
been raised to the attention because we oftentimes think about 
prescription drugs as being safe. And yet young people, we 
know, abuse these prescription drugs for exactly that reason, 
because they believe that they are safe, when in fact when they 
are misused, they are quite deadly and quite addictive, and we 
know a lot of those stories.
    We are bringing this to the attention every day to people 
in every possible way, including the media campaign which has 
been very effective at educating adults about what is within 
their own medicine cabinets. I know Congress is working hard on 
take back programs--Congressman Stupak, Congressman Insley--on 
how to get rid of these drugs that are existing in medicine 
cabinets in a safe way that does not harm the environment, and 
we support those efforts very much.
    On the prisoners, I think you are exactly right. As State 
budgets decrease and more people are released, if these people 
went into prison with a drug problem and they did not get 
treatment within the walls, we should not be surprised when 
they are released back into our communities that they are going 
to re-offend.
    Mr. Issa. My time is expired, but I just want to make sure 
I directed the question. It was about the fact that they are on 
drugs. They have availability of drugs in prison. It is the 
absence of the ability to have them simply withdraw for a 
period of 2, 5 or 10 years while they are in prison. I agree 
that we need treatment, but it was actually that can we make 
prisons a drug-free environment.
    Mr. Kerlikowske. And I think among the correctional experts 
that I have talked to, that whether it is cell phones, whether 
it is drugs within prison, whether it is homemade alcohol, 
those are significant problems. I think there is some 
technology that the prison systems are exploring to actually do 
a better job of doing that.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman.
    Mr. Kerlikowske, at the U.N. Commission on Narcotics Drugs 
Summit, you stated that, ``The U.S. supports many specific 
interventions, such as medically assisted drug treatment, 
syringe exchange programs, and the use of detoxification and 
treatment services tailored to the needs of those suffering 
from the disease of addiction.''
    However, you stated that, ``We do not use the phrase `harm 
reduction' to describe our policies because we believe it 
creates unnecessary confusion and is too often misused to 
further policies and ideologies that promote drug use.''
    Your testimony submitted to this subcommittee, while 
briefly acknowledging the spread of HIV from drug use, is 
silent on both syringe exchange programs that have shown 
positive results in limiting the spread of HIV, and the issue 
of harm reduction interventions generally.
    Do you acknowledge that, whatever its title or 
characterization you choose to use, that these interventions 
can be effective in reducing the spread of death and disease? 
Do you agree that we need to fund more programs that help 
reduce death and disease? Does the budget propose to fund any 
intervention programs that demonstrated positive results in 
reducing drug overdose deaths? Do you have any plan for dealing 
with the overdose crisis and the HIV/AIDS epidemic? And what is 
the basis for your belief that the term harm reduction implies 
promotion of drug use? What about HIV, Director?
    Mr. Kerlikowske. Your question about the overdoses and 
reducing that, I think that part of the answer was educating 
parents and doing all of the work. That is the spike in 
treatment admissions. That is the spike in people going to 
emergency rooms. And it is also causing the spike of fatal 
overdoses.
    We don't use the term harm reduction because it is somewhat 
in the eye of the beholder, the ear of the beholder, I guess.
    Mr. Kucinich. What is in your ear and your eye with respect 
to that?
    Mr. Kerlikowske. I have heard people talk about harm 
reduction as if it is legalization. And I have heard people 
talk about it.
    Mr. Kucinich. Is that how you believe? Is that your 
interpretation?
    Mr. Kerlikowske. Personally, I don't have any----
    Mr. Kucinich. You are the Director.
    Mr. Kerlikowske. No, I haven't spent a lot of time thinking 
about whether I should put a definition on it. Frankly, I don't 
think that is my----
    Mr. Kucinich. You haven't really given it any thought at 
all?
    Mr. Kerlikowske. Frankly, I haven't given much thought as 
to what I should define it as because I don't think I get to 
tell the world that----
    Mr. Kucinich. Does that have any bearing on the way that 
you look at managing this?
    Mr. Kerlikowske. I am sorry?
    Mr. Kucinich. Does that have any bearing on the way that 
you look at syringe exchanges, for example?
    Mr. Kerlikowske. The term harm reduction doesn't have any 
bearing, but here is the way I look at the syringe exchange 
programs. Whether I was in Seattle where they existed or when I 
was the Police Chief in Buffalo where they existed, if they are 
part of a comprehensive program to get people to, one, help 
reduce the spread of hepatitis C, the spread of HIV, that 
reduction is important. But if they also serve as a gateway to 
people who are interested and want treatment and can use 
treatment, then I think it can be quite effective.
    Mr. Kucinich. What about AIDS? What about HIV?
    Mr. Kerlikowske. On HIV/AIDS?
    Mr. Kucinich. How serious a matter is that? And how serious 
to you take your policies with respect to being able to limit 
the spread of HIV? Do you see any fit between that as a public 
health issue and your responsibilities as Director?
    Mr. Kerlikowske. I do, and we work very closely with----
    Mr. Kucinich. Be specific in your response.
    Mr. Kerlikowske. We do, because as you know, this 
administration, working with Congress, relieved the Federal ban 
on needle exchange. But it is also part of our working with HHS 
to make sure that these other incidents as a result of drug 
abuse and the use of injectable drugs, that we look at that 
very carefully and work on that.
    Mr. Kucinich. But tell me, though, help us out here. Help 
me out, to understand specifically with respect to syringe 
exchange programs and the connection between those exchanges 
and limiting the spread of AIDS, what specifically are you 
doing to create conditions which will limit the spread of AIDS 
through your programs? Where do you do it?
    Mr. Kerlikowske. Well, the Drug Free Communities Program, 
which talks about and helps people prevent drug use, from a 
particular----
    Mr. Kucinich. What is that? Is that a needle exchange? Is 
that syringe exchange?
    Mr. Kerlikowske. No, we don't--the Federal----
    Mr. Kucinich. You don't believe in that, really, do you?
    Mr. Kerlikowske. We are not doing Federal funding.
    Mr. Kucinich. You don't believe in syringe exchange?
    Mr. Kerlikowske. I supported needle exchanges in Buffalo. I 
supported needle exchanges in Seattle. I think if they are part 
of a comprehensive drug reduction effort, then they make a lot 
of sense.
    Mr. Kucinich. OK. Thank you.
    Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Director, define for me what you view as your mission or 
your goal? Is it the broad thing? We all understand to reduce 
drug use. And this gets sort of back to my first question and 
your response. Do you view it as we accomplish reduction in 
drug use by being the coordinator, the facilitator of other 
agencies who are doing their job?
    Define in as specific way as you can how you view your 
mission, your goal at the ONDCP, if I have my acronym right?
    Mr. Kerlikowske. Sure. I think that the mission is critical 
when it comes to coordination of the----
    Mr. Jordan. Do you think that is your primary objective? 
Because you are like the grand coordinator for how we are going 
to implement our drug policy.
    Mr. Kerlikowske. I never thought as the grand coordinator, 
but yes.
    Mr. Jordan. OK.
    Mr. Kerlikowske. And I would tell you why it is important. 
In 2003, the British government did away with their so-called 
drug coordinator. In their most recent report from Parliament, 
they are saying, my gosh, we should bring this back. It was a 
mistake to have all of these different organizations within a 
government that is much smaller than the United States, all of 
these different organizations working on drug policy, drug 
enforcement, drug treatment, etc., without somebody to oversee 
them and without somebody to coordinate their efforts.
    We are much stronger when we work together and when we 
break down the silos of communication that exist among 
treatment, among prevention, and among law enforcement.
    Mr. Jordan. OK. Now, let me go back to a question that 
Ranking Member Issa brought up specifically about individuals 
incarcerated in our prisons. It would seem to me that if we 
took a tough approach, if we said there will be zero tolerance 
for inmates who are getting access to drugs. I don't know if 
that means super harsh sentences for correction officers who 
are assisting or whatever. But are you willing to say that 
should be a goal for you as coordinator of our drug policy, 
that no inmate will be getting access to drugs, at least in 
Federal prison?
    I think the American people would expect that, frankly. 
Maybe there are some who don't understand and assume that is 
happening right now. So talk to me about that issue. I think it 
is a great point that the ranking member brought up.
    Mr. Kerlikowske. I think it is an excellent point also 
because what goes on in the prisons clearly will be outside, 
particularly as inmate populations are reduced for a whole 
variety of reasons. Working with other components about 
technology that can help to detect the drugs within the prison 
walls, the National Institute of Corrections, a number of other 
organizations have worked very hard to do that.
    It not only is for the safety of the people behind the 
walls, it is also for the safety of the people that work there. 
But I think the other more important part is that if they went 
into the prison with a drug problem, they should be given 
access to treatment within those walls.
    Mr. Jordan. I am not saying they shouldn't, but they should 
not be getting access to illegal substances while they are in 
prison, and taxpayers, I mean, you talk about something they 
don't like. There are lot of things they don't like about our 
government, but that is certainly one of them. And it seems to 
me that should be something we--I have been, back in my days in 
the State House, the State Senate representing areas where we 
had State prisons, I have been in those prisons. Most of the 
folks are in there because of a drug problem, and the drug 
problem caused them to do some other crime.
    And so if we can't get after that, I think as 
Representative Issa pointed out, it is going to be tough to 
really get at the overall problem in the country.
    Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you very much.
    Mr. Foster.
    Mr. Foster. I guess maybe I am a little bit naive, but I am 
a little bit less pessimistic on getting a rough estimate of 
the cost-effectiveness of offshore supply interdiction. For 
example, when the Taliban were in charge of Afghanistan, they 
had a bunch of bad features, but one of their merits was in 
fact that I believe there was a drop in the production of opium 
poppies. Is that correct?
    Mr. Kerlikowske. You are right.
    Mr. Foster. And it was by more than a factor of two. It was 
a big factor.
    Mr. Kerlikowske. It was almost to zero.
    Mr. Foster. Almost zero. We have a calibration point. We 
can see what the effect will be. Presumably, if you wipe out 
that source of opium poppies, that will trigger an increase in 
the world price of opium, that will trigger a drop in the 
demand in the United States, and hopefully a measurable drop in 
the destruction of human life in the United States.
    So I believe we have a calibration data sample to know what 
would happen if we could throw that switch the other way, get 
rid of all opium poppies in Afghanistan. Are you familiar with 
the history of what drug consumption of relevant drugs happened 
during the time when the opium poppy supply came and went, or 
disappeared and reappeared?
    Mr. Kerlikowske. I am. Almost no heroin that comes out of 
Afghanistan comes to the United States at all. And it has not, 
whether it is during the height of poppy production and heroin 
production in that country. Our source of heroin in the United 
States has been Mexico.
    Unfortunately, the source for Russia, the source for the 
U.K, the source for Europe quite often is Afghanistan. And that 
is why we really have to work very closely with international 
partners to stop the flow coming out, to stop the production, 
to go after the labs, as Ambassador Holbrooke has talked about. 
Those type of things.
    Mr. Foster. Is there in fact a world price for this? Is 
this like oil? We import almost no oil from Saudi Arabia, OK, 
but that doesn't mean that Saudi Arabian production isn't very 
crucial to the price that we pay for oil. And so is there in 
fact a pretty liquid world market for drugs in various states 
of processing?
    Mr. Kerlikowske. Unfortunately, there is a pretty 
interesting piece that the RAND Corp. had done a while back 
that shows that you can have a fairly significant effort in 
reducing, and their study was on precursor chemicals that were 
used to manufacture, I believe at that time it was 
methamphetamine.
    After that significant reduction, the amount of 
availability of the drug decreased. The price went up. It 
didn't take long at all, unfortunately, for the market and the 
drug dealers to respond quickly. So when Afghanistan went down 
in opium production, the area of the Golden Triangle filled 
that void.
    Mr. Foster. Now, doesn't that really call into question 
putting any money into getting rid of opium poppies in 
Afghanistan?
    Mr. Kerlikowske. I think what it calls into question is one 
or two things. People that look at eradication as just a method 
of reducing the amount of drugs that may go somewhere else and 
don't see it as a part of rule of law--Colombia, again, is a 
good example, using it for other reasons to increase democratic 
forces, to show the fact that government can be effective and 
work and actually be more productive.
    Mr. Foster. OK. So economically, the tradeoff has nothing 
to do with reducing the damage of drugs in the United States. 
If we were successful at wiping out the opium poppies in 
Afghanistan, the anticipated effect on drug consumption in the 
United States would be very small.
    Mr. Kerlikowske. It would be very small in Afghanistan 
because very little of the drugs ever come to the United 
States, about 3 percent.
    Mr. Foster. But the world price effect could, in principle, 
make a difference. But during the period when the Taliban 
suppressed it, was there a noticeable rise in the world drug 
price or not?
    Mr. Kerlikowske. I don't know the price issue. I do know 
that people that needed heroin or were addicted to heroin could 
still get heroin. There might have been a dip, but then when 
the production in the Golden Triangle increased, it filled the 
void. And remember, too, there is heroin that is produced out 
of Mexico.
    Mr. Foster. Yes. All right. Thank you.
    Mr. Kerlikowske. I hope I didn't wane on your optimism 
there.
    Mr. Foster. No, no, no. I was optimistic in getting an 
estimate of how cost-effective the intervention is, and you 
have been very encouraging that the effectiveness seems to be 
near zero, according to what you said, which is a very 
interesting thing from a policy point of view.
    Mr. Kerlikowske. But there are a lot of other reasons for 
it.
    Mr. Foster. That is right, but those should be done for 
internal reasons on what we want to come out of Afghanistan, 
and not because we expect it will reduce the amount of human 
misery in the United States.
    OK. Thank you. I yield back.
    Mr. Kucinich. I want to commend the Representative on his 
line of questioning and the importance of the discussion that 
you started. Thank you.
    Mr. Kerlikowske, the subcommittee has literally dozens of 
questions, but in order to get to the next panel, in order to 
facilitate movement of your business and important work today, 
we will submit those in writing and ask that you respond in 
writing to those questions.
    Mr. Kerlikowske. I will.
    Mr. Kucinich. I appreciate you being here today. You have a 
centrally important position with respect to drug policy for 
this country, and for that matter, internationally. And so this 
is the first of many hearings that we will be having. Because I 
know I will see you again, I think that it is fair at this 
point to thank you for being here and to bid you good day. 
Thanks for your appearance.
    Mr. Kerlikowske. Thank you.
    Mr. Kucinich. We will move to the second panel. While the 
second panel is getting in place, I am going to make the 
introductions.
    First is Mr. John Carnevale. Mr. Carnevale is an 
internationally recognized expert in the field of drug policy. 
He is president of Carnevale Associates, a public policy firm. 
He served three administrations, four drug czars, and he 
directed the formulation of the President's National Drug 
Control Strategy, as well as the Federal drug control budget.
    He is recognized as a key architect of the performance 
measurement system which ONDCP has used to determine progress 
toward national goals and objectives. He is credited with 
directing policy research that shifted the primary focus of the 
Nation's drug control strategy from supply to demand reduction.
    He received his Ph.D. in economics from the Maxwell School 
of Syracuse University.
    Ethan Nadelmann is executive director of the Drug Policy 
Alliance, which advocates for drug policies ground in science, 
health and human rights. He received his B.A., J.D., and Ph.D. 
from Harvard; a master's degree in international relations from 
the London School of Economics. He taught politics and public 
affairs at Princeton, where his speaking and writing on drug 
policy attracted international attention.
    In 1994, he founded the Lindeman Center, a drug policy 
institute created with the philanthropic support of the Soros 
Foundation. In 2000, the growing Center merged with another 
organization to form the Drug Policy Alliance and Drug Policy 
Alliance Network.
    Dr. Vanda Felbab-Brown is a fellow in Foreign Policy and in 
21st Century Defense Initiatives at Brookings, where she 
focuses on South Asia, the Andean region, Mexico and Somalia. 
She is an expert on international and internal conflict issues 
and management including counterinsurgency and the interaction 
between illicit economies and military conflict.
    She is an adjunct professor in the Securities Studies 
Program, School of Foreign Service at Georgetown. Prior to 
taking up her position at Brookings, she was assistant 
professor at Georgetown. A frequent commentator in the media, 
she authored a forthcoming book, ``Shooting Up: 
Counterinsurgency and the War on Drugs." I look forward to 
reading that.
    Professor Peter Reuter is testifying in place of Rosalie 
Pacula, who is ill. Professor Reuter is professor in the School 
of Public Policy in the Department of Criminology at the 
University of Maryland. He served as editor of the Journal of 
Policy Analysis and Management. He founded and directed RAND's 
Drug Policy Research Center. He has written and coauthored 
numerous books and articles on criminology, criminal justice, 
and drug policy. He is Director of the University's program on 
the economics of crime and justice policy.
    Dr. Reuter received his Ph.D. in economics from Yale.
    Thanks to all the witnesses for being here. It is the 
policy of the Committee on Oversight and Government Reform to 
swear in all witnesses before they testify. I would ask that 
you rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much. Let the record reflect 
that each of the witnesses answered in the affirmative.
    I would ask that each witness give an oral summary of his 
or her testimony and to keep this summary under 5 minutes in 
duration. Your complete written statement will be included in 
the hearing record. When you speak, make sure that mic is close 
so we can hear you.
    Dr. Carnevale, let's begin with you. You may proceed for 5 
minutes.

STATEMENTS OF JOHN CARNEVALE, PRESIDENT, CARNEVALE ASSOCIATES, 
LLC; ETHAN NADELMANN, EXECUTIVE DIRECTOR, DRUG POLICY ALLIANCE; 
  VANDA FELBAB-BROWN, FELLOW, THE BROOKINGS INSTITUTION; AND 
PETER REUTER, PROFESSOR, SCHOOL OF PUBLIC POLICY AND DEPARTMENT 
             OF CRIMINOLOGY, UNIVERSITY OF MARYLAND

                  STATEMENT OF JOHN CARNEVALE

    Mr. Carnevale. Good morning, Mr. Chairman and members of 
the committee. I want to thank you for this opportunity to 
submit testimony regarding ONDCP's proposed Federal drug 
control budget for fiscal year 2011.
    Mr. Kucinich. Bring the mic closer please.
    Mr. Carnevale. Sure.
    Mr. Kucinich. Thank you.
    Mr. Carnevale. Before I begin, I want to point out that 
ONDCP awarded my company a contract to assist it in developing 
a performance reporting system for the strategy. I did confer 
with my contracting officer about potential conflicts of 
interest related to my testimony today. While I am restricted 
from discussing my company's work, I am committed to discuss 
all of the matters of interest to this committee.
    I do want to make it clear that my testimony is entirely my 
own and was not prepared on behalf of or with the consent of 
ONDCP.
    So let me begin by highlighting what I see in the way of a 
new approach to drug policy under the Obama administration. It 
appears to me that they want to move more toward the public 
health model that focuses heavily on reducing our Nation's 
demand for drugs. I assume this means that the new strategy 
will strongly emphasis demand reduction and that supply 
reduction will no longer be central to our Nation's effort to 
reduce drug use.
    With regard to the drug budget, if there is one thing I 
know it is this, that no drug policy will succeed unless it has 
the resources to implement it. My view is supported by the 
evidence handed to us by the last administration. In looking at 
past budgets, we find they emphasized funding for supply 
reduction as a means of reducing the demand for drugs.
    This emphasis on supply reduction failed to produce results 
and our Nation's drug policy stalled because of it. For 
example, there was no change in overall drug use from 2002 to 
2008. It was 8 percent. The decline in youth drug use that 
started in the mid-1990's abruptly ended in 2004 and now shows 
signs that it may be increasing.
    There was no change in the number of individuals who abuse 
or are addicted to drugs over this period, and there was no 
shortage of illicit drugs in the market.
    With regard to the 2011 ONDCP budget, it does present a 
change in resource priorities whereby treatment and prevention 
receive the largest percentage increases. While this is good 
news, I do have some serious concerns and they are as follows. 
One, we have a budget like those in the past days that 
continues to substantially over-allocate funds to where 
research says they are the least effective: interdiction and 
source country programs.
    Two, we have a budget that fails to present a consolidated 
picture of all Federal drug control spending. And three, we 
have a budget that makes me wonder if what is being scored is 
new prevention resources is correct.
    With regard to drug scoring issues, I just want to 
highlight a couple of concerns quickly today. First, with 
regard to the issue of the comprehensive accounting, I have 
done some analysis and I estimate that if we add back the $6 
billion in resources to the budget that is currently missing, 
we would find that only 24 percent of today's total drug budget 
is for demand reduction and 76 percent is for supply reduction.
    Second, while the largest increase is proposed for 
prevention, the increase does little to help us recover from 
years of cuts. Adding up the cuts in the previous 
administration, including last year's $3.1 million cut for the 
Safe and Drug Free Schools Program, we find that prevention is 
in the hole by a half billion dollars. The proposed $200 
million increase in prevention in 2011 only partially fills 
that hole.
    Third, the request for prevention itself, the increase for 
one program, the successful Safe and Healthy Students Program 
of $283 million, is somewhat questionable. My analysis of that 
program suggests that most of these funds will not be realized 
as prevention. The new program only says that schools may spend 
funds to prevent and reduce substance abuse.
    In reality, this program is about funding non-education 
strategies to improve school climate and to improve students' 
health and well being. If these funds are not realized for 
prevention, the proposed increase for 2011 essentially 
vanishes.
    There are two other matters I would like to briefly 
discuss. Let me start with healthcare reform. Under healthcare 
reform, along with the new parity laws, coverage for substance 
abuse treatment services is on the verge of a great expansion. 
One area to pay close attention to is Medicaid. This doesn't 
start until 2014, but starting in 2014, State Medicaid programs 
will allow for care to all State residents. This means that 
beginning in 2014, Medicaid resources will help the drug budget 
become more demand reduction oriented.
    But healthcare reform and parity will not benefit everybody 
needing treatment. This means that we must not give up on 
existing programs that add to today's treatment capacity, 
programs like Access to Recovery and Substance Abuse Block 
Grant.
    My last concern pertains to ONDCP's budget formulation 
authority. ONDCP is required by law to make independent 
recommendations to the President that it determines as 
appropriate to enable the strategy to achieve its goals and 
objectives. To state the obvious, OMB has never liked this 
authority and there has been some recent debate about whether 
ONDCP's budget formulation responsibility should be continued.
    If ONDCP loses its authority with regard to the budget 
formulation process, it will just become another policy shop. I 
hope this subcommittee continues to strongly support the 
current budget formulation authority now afforded ONDCP.
    I want to thank you, Mr. Chairman and members of the 
committee, for the opportunity to appear before you again 
today.
    Thank you.
    [The prepared statement of Mr. Carnevale follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.021
    
    [GRAPHIC] [TIFF OMITTED] T5125.022
    
    [GRAPHIC] [TIFF OMITTED] T5125.023
    
    [GRAPHIC] [TIFF OMITTED] T5125.024
    
    [GRAPHIC] [TIFF OMITTED] T5125.025
    
    [GRAPHIC] [TIFF OMITTED] T5125.026
    
    [GRAPHIC] [TIFF OMITTED] T5125.027
    
    [GRAPHIC] [TIFF OMITTED] T5125.028
    
    [GRAPHIC] [TIFF OMITTED] T5125.029
    
    [GRAPHIC] [TIFF OMITTED] T5125.030
    
    [GRAPHIC] [TIFF OMITTED] T5125.031
    
    [GRAPHIC] [TIFF OMITTED] T5125.032
    
    [GRAPHIC] [TIFF OMITTED] T5125.033
    
    [GRAPHIC] [TIFF OMITTED] T5125.034
    
    [GRAPHIC] [TIFF OMITTED] T5125.035
    
    [GRAPHIC] [TIFF OMITTED] T5125.036
    
    [GRAPHIC] [TIFF OMITTED] T5125.037
    
    [GRAPHIC] [TIFF OMITTED] T5125.038
    
    [GRAPHIC] [TIFF OMITTED] T5125.039
    
    [GRAPHIC] [TIFF OMITTED] T5125.040
    
    Mr. Kucinich. Thank you for your presence here.
    Mr. Nadelmann, you may proceed.

                  STATEMENT OF ETHAN NADELMANN

    Mr. Nadelmann. Thank you for the invitation to testify for 
this committee.
    Let me be frank about the perspective of myself and my 
organization, the Drug Policy Alliance. We regard the U.S. drug 
policy of the last 30 years as a colossal failure and a gross 
violation of human rights, as well as of common sense: 
increasing America's incarcerated population to over 2 million 
people; possessing less than 5 percent of the world's 
population, but almost 25 percent of the world's incarcerated 
population; increase in the number of people incarcerated on 
drug charges from 50,000 in 1980 to half a million today; 
arresting almost 2 million people a year; allowing hundreds of 
thousands of people to die unnecessarily of HIV/AIDS when 
proper interventions were available; allowing tens of thousands 
each year to die of overdoses; allowing and continuing to 
tolerate gross racial disproportionality in our policy.
    All of those represent egregious violations of fundamental 
American values.
    I am encouraged that the Obama administration and Congress 
have taken some steps in the right direction over the past 
year. The leadership of Speaker Pelosi and Congressmen Obey and 
Serrano in moving forward on the syringe exchange, allowing 
Federal funding for syringe exchange was a notable step 
forward. The leadership so far in the Senate and in the House 
on reducing the crack-powder disparity has been important, and 
it has been important that it has had Republican cooperation as 
well.
    I urge the House to pass the Senate legislation, the 18 to 
1 reform, and then to move as quickly as possible to push 
toward 1 to 1 reform and other sentencing reform.
    I am also encouraged at the movement on the part of the 
Obama administration allowing States to move forward in the 
responsible regulation of medical marijuana. The shame, of 
course, is that ONDCP has been largely absent from these 
reforms. They have made important steps in the right direction 
in terms of integrating drug treatment into ordinary medical 
care and in terms of highlighting the problem of overdoses, but 
there are essentially four fundamental problems with their 
current proposed strategy and budget.
    The first is the absence of any truly meaningful indicators 
of success or failure. The continuing obsession with how many 
people say they have used an illicit drug in the past year or 
month seems to me deeply misplaced. What we need to focus on 
instead are reductions in the death, disease, crime and 
suffering associated both with drug misuse and with our drug 
prohibition policies. That is the sort of restatement of policy 
objectives that ONDCP needs to embrace or that Congress needs 
to mandate for them.
    Second, we see no indication of a real shift from criminal 
justice and repression to a true public health approach. What 
John Carnevale just said about the Federal budget is more than 
true. The fact that the Federal Bureau of Prisons, in which 
more than half the Federal prison population are locked up on 
drug charges, is not even included in the drug war budget is 
just one indication of that.
    What you see, essentially, is no mention in Director 
Kerlikowske's statement about the importance of reducing the 
unnecessary incarceration of Americans for nonviolent drug 
offenses; no mention of the need to reduce the 1.7 million drug 
arrests; no mention, although to some extent responsive to 
Congressman Foster's question, about the futility of supply 
reduction efforts and the inevitability of push-down/pop-up 
dynamics in what is essentially a global commodities market.
    Third, the striking lack of innovation in what they propose 
to do in the future. They essentially appear to be rearranging 
the chairs on the Titanic. There is the rhetoric there, but not 
the reality. The problem of overdose fatalities is properly 
noted, and Director Kerlikowske has shown some leadership in 
highlighting that problem. But what is their solution? Just 
more attempts at futile supply reduction efforts.
    Meanwhile, a potential answer in the form of the lock zone, 
a heroin overdose antidote which is increasingly used in 
American cities and abroad, is not given any mention or 
support. Thousands of lives could be saved simply by increasing 
Federal support in this area and by providing necessary 
leadership.
    Look in Europe, look in Canada where innovative approaches 
to prescribe pharmaceutical heroin to people who have failed in 
drug-free and methadone programs has abundant evidence recently 
confirmed in The New England Journal of Medicine, yet we don't 
hear those sorts of proposals.
    The same thing with supervised injection facilities which 
are effective in reducing overdose fatalities, effective in 
reducing HIV transmissions, effective in reducing public 
nuisance. Once again, no mention of that either.
    The only innovations are in trying to find new ways, new 
coercive approaches, new ways of using testing and repression 
to deal with what Director Kerlikowske essentially acknowledges 
is a disease or a chronic condition. That does not seem to be a 
public health approach.
    Finally, there is no evidence of any desire or interest in 
a truly independent assessment of American drug policy. You 
don't see it in the ONDCP recommendations. I urge this 
committee, I urge the Congress to allocate funding so that the 
National Academy of Sciences or some other independent body can 
undertake a truly independent analysis so that we can at least 
head off in the right direction in trying to reduce the 
problems both of drug misuse and of drug prohibition in America 
and around the world.
    Thank you.
    [The prepared statement of Mr. Nadelmann follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.041
    
    [GRAPHIC] [TIFF OMITTED] T5125.042
    
    [GRAPHIC] [TIFF OMITTED] T5125.043
    
    [GRAPHIC] [TIFF OMITTED] T5125.044
    
    [GRAPHIC] [TIFF OMITTED] T5125.045
    
    [GRAPHIC] [TIFF OMITTED] T5125.046
    
    [GRAPHIC] [TIFF OMITTED] T5125.047
    
    Mr. Kucinich. I thank the gentleman.
    Ms. Felbab-Brown, you may proceed for 5 minutes.

                STATEMENT OF VANDA FELBAB-BROWN

    Ms. Felbab-Brown. Thank you, Mr. Chairman, for giving me 
this opportunity to address the subcommittee on this important 
issue. I will focus on international policies.
    The drug trade poses multiple and serious threats, not only 
in consuming countries, but also in source and transshipment 
countries, that range from serious threats to security, to the 
legal economy, to political and judicial processes.
    At the same time, however, millions of people around the 
world, large segments of population and entire communities 
depend on the illegal drug trade for basic livelihood. 
Consequently, belligerent groups that embrace the drug trade 
obtain not only large financial profits, but political support.
    Hence, how one manages, what kind of narcotics policies one 
adopts is critical for stability and security and U.S. national 
security interests.
    There can be hope that supply side policies will disrupt 
the global drug trade. However, in specific locales, supply 
side policies have been effective in disrupting in a lasting 
way supply. There are two basic models: the China model, a very 
brutal repression model; and the Thailand model. The China 
model is deeply inconsistent with U.S. values and interests. 
Consequently, we should adopt the Thailand-based alternative 
livelihoods model.
    However, for the model to be effective, it needs to be 
conceived of as a multi-faceted state-building process that 
focuses on strengthening the bond between marginalized 
communities and the state in a variety of ways. I am very 
encouraged how the Obama administration has formulated the 
Merida Initiative toward such an objective. That is a very 
important development even as the funding is still limited.
    I am also encouraged that the Obama administration is 
adopting the right approach to sequencing eradication and 
alternative livelihoods in Afghanistan. I have some 
reservations about the Afghanistan policy, but the cornerstone 
of the strategy is very important.
    For the alternative livelihoods approaches and state-
building approaches, to be effective they need to be 
comprehensible, well-funded, long-lasting and specifically they 
cannot focus simply on chasing the replacement crop. Building 
effective law enforcement, building accessible judicial 
processes is as important as comprehensive rural development.
    It is also important to realize that if we succeed in the 
locale in disrupting smuggling or supply, the smuggling or 
supply will shift to other locations. Again, the Obama 
administration should be complimented for recognizing this with 
respect to Mexico and adopting two new initiatives, the Central 
American Region Initiative and the Caribbean Basin Security 
Initiative.
    These efforts are funded in a very limited way, which is 
not necessarily inappropriate because we need to realize that 
State capacity, the level of corruption, the level of state 
development typically hampers the productive capacity of states 
to productively absorb money.
    Mr. Kucinich. Would you repeat that? Just say that one more 
time?
    Ms. Felbab-Brown. Sure. The funding for the Central America 
Initiative and Caribbean Initiative is very limited. However, 
that is not necessarily inappropriate because we need to 
recognize that there are limits on state capacity to absorb 
money productively if the state faces critical institutional 
deficiencies.
    We need to avoid situations of simply teaching traffickers 
how to become more effective traffickers, as has been the 
unfortunate consequence of many of our policies.
    I also want to commend the Obama administration on focusing 
on demand reduction abroad, not just in the United States. 
Again, the funding is limited for these programs, and 
critically, it is important to recognize that one shoe does not 
fit all. These approaches need to be very much tied to the 
local economic, political, social conditions in the country.
    With respect to Afghanistan, the overall strategy away from 
eradication right now, the focus on interdiction and rural 
development is effective. I have concerns about focus on wheat 
in the rural development program, and I have also concerns 
about the way interdiction is being operationalized.
    Mexico I think is a great change with limited funding. 
Nonetheless, again, that is not necessarily inappropriate. It 
is important to focus the funding on demonstration areas and it 
is important to recognize that the political and economic 
arrangements in local countries, their social organizations, 
greatly limit the effectiveness of policy, and the United 
States has very limited capacity, and in the best of 
circumstances even the good cooperation with Mexico to change 
these. And these social, political, economic arrangements 
critically influence the effectiveness of counter-narcotics 
policies.
    Great progress has been accomplished in Colombia, but much 
remains to be accomplished, both in the security sphere and in 
the social sphere and in the counter-narcotics sphere. The 
elections in May in Colombia present an opportunity to move 
toward a more productive approach that focuses much more on 
socioeconomic programs and moves away from the very 
counterproductive zero-coca policy.
    [The prepared statement of Ms. Felbab-Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.048
    
    [GRAPHIC] [TIFF OMITTED] T5125.049
    
    [GRAPHIC] [TIFF OMITTED] T5125.050
    
    [GRAPHIC] [TIFF OMITTED] T5125.051
    
    [GRAPHIC] [TIFF OMITTED] T5125.052
    
    [GRAPHIC] [TIFF OMITTED] T5125.053
    
    [GRAPHIC] [TIFF OMITTED] T5125.054
    
    [GRAPHIC] [TIFF OMITTED] T5125.055
    
    [GRAPHIC] [TIFF OMITTED] T5125.056
    
    [GRAPHIC] [TIFF OMITTED] T5125.057
    
    [GRAPHIC] [TIFF OMITTED] T5125.058
    
    [GRAPHIC] [TIFF OMITTED] T5125.059
    
    [GRAPHIC] [TIFF OMITTED] T5125.060
    
    Mr. Kucinich. Thank you very much.
    Professor Reuter, you may proceed for 5 minutes. Thank you.

                   STATEMENT OF PETER REUTER

    Mr. Reuter. Thank you very much.
    Mr. Chairman, I appreciate the opportunity to testify 
before you today. I ask that the full statement of my 
colleague, Rosalie Pacula of the RAND Corp., be incorporated 
into the record.
    [The prepared statement of Ms. Pacula follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.061
    
    [GRAPHIC] [TIFF OMITTED] T5125.062
    
    [GRAPHIC] [TIFF OMITTED] T5125.063
    
    [GRAPHIC] [TIFF OMITTED] T5125.064
    
    [GRAPHIC] [TIFF OMITTED] T5125.065
    
    [GRAPHIC] [TIFF OMITTED] T5125.066
    
    [GRAPHIC] [TIFF OMITTED] T5125.067
    
    [GRAPHIC] [TIFF OMITTED] T5125.068
    
    [GRAPHIC] [TIFF OMITTED] T5125.069
    
    [GRAPHIC] [TIFF OMITTED] T5125.070
    
    [GRAPHIC] [TIFF OMITTED] T5125.071
    
    [GRAPHIC] [TIFF OMITTED] T5125.072
    
    [GRAPHIC] [TIFF OMITTED] T5125.073
    
    [GRAPHIC] [TIFF OMITTED] T5125.074
    
    Mr. Reuter. I will focus today on two issues. The first, 
which will take most of my testimony, is how drug courts should 
be developed so they can emerge from their essentially boutique 
status to make an important contribution to reducing the 
Nation's crime and drug problems.
    The second issue is a brief comment on whether supply 
programs should be cut.
    Director Kerlikowske, like his predecessors, has offered 
support for the continued expansion of drug courts, though the 
funding offered by the administration's budget is for a broader 
set of specialized courts. Drug courts are seen as a major 
innovation which, by increasing the use of treatment rather 
than incarceration, lowers the extent of drug-caused crime and 
drug consumption.
    But despite the rapid expansion of the number of drug 
courts, the number of defendants who pass through such programs 
remains small. After almost 20 years, with over 2,300 separate 
programs having been created, a 2008 study estimated that only 
55,000 drug-involved defendants were processed in such courts 
in the middle of the decade. The same study estimated that over 
1 million drug-involved defendants entered the criminal justice 
system each year.
    The small number of enrollees arises from several factors. 
For example, many jurisdictions simply lack the administrative 
capacity to implement drug courts at scale. Over half of the 
drug courts responding to one survey reported they just cannot 
accept more clients because of these capacity constraints. And 
as a result, there are strong administrative and political 
incentives for drug courts to cream-skim by serving relatively 
low-risk populations most likely to achieve successful 
outcomes, rather than the populations who would experience the 
greatest net reduction in criminal offending from drug court 
interventions.
    In addition, the eligibility criteria at the drug courts 
are highly restrictive. They may be effective and even cost-
effective serving the specific clients they recruit, but the 
diverted offenders are at low risk of going to prison or even 
jail following sentence in the absence of the drug court 
intervention.
    My colleagues, Harold Pollack and Eric Sevigny in their 
forthcoming paper estimate that of those sentenced to prison or 
jail in the early part of the last decade, fewer than 10 
percent would be eligible for drug courts that apply the usual 
criteria.
    Given the limited capacity and relatively low-risk 
populations actually served, the currently deployed model of 
drug courts is unlikely to noticeably reduce the numbers 
incarcerated. In fact, most drug courts routinely exclude most 
of the drug-using offenders. One survey found that only 12 
percent of drug courts accept clients with any prior violent 
convictions. Individuals facing a drug charge, even if the 
seller is drug-dependent, are excluded in most courts. Other 
charges that routinely lead to exclusion include property 
crimes commonly associated with drug use like theft, fraud and 
prostitution.
    These eligibility rules are likely to exclude most 
experienced users of cocaine, heroin and methamphetamine. The 
few longitudinal studies of cocaine and heroin users show that 
these long-term users have accumulated lengthy histories of 
convictions for property and violent crimes and that many, 
perhaps most, have co-occurring disorders.
    Can drug courts be effective in dealing with these harder 
clients? Assessing the potential effect on program 
effectiveness of relaxing eligibility requirements is a major 
research challenge. But unless this is done, the courts are 
unlikely to make a major difference to crime and drug use. They 
have to reach out to these other clients with appropriate 
adaptations in services and monitoring.
    Let me conclude with a comment on supply side programs. As 
a number of others have said, the President's budget leaves 
these programs largely unscathed, despite a mounting unease 
that Federal enforcement effort has done little to help reduce 
drug use. Like John Carnevale, I believe that some of these 
programs, particularly in the interdiction area, should be cut. 
Congressman Foster asked very perceptive questions about the 
eradication programs and the evidence on the Afghan prohibition 
under the Taliban is it had minimal effect on drug markets in 
the United States and modest effects at most in Western Europe.
    With interdiction, even large increases in the share of 
cocaine seized in the last 10 years, has not led to reductions 
in availability or in price. And there are sound analytic 
arguments as to why seizures are unlikely to make much 
difference to price or availability.
    If my arguments for making such cuts lacks specificity, 
this reflects the simple lack of evaluations and research about 
the interdiction program. Despite annual expenditures of 
approximately $4 billion in fiscal year 2010, no agency 
involved has invested in systematic analysis of the 
effectiveness of the program as a whole or of its components. 
Of if they have, the results have not been published.
    Thus, one is forced to make judgments on the basis of gross 
data that don't allow for much nuance. This committee would do 
a considerable service if it authorized a rigorous external 
assessment of the interdiction effort, after which one might be 
able to make a more grounded statement about the value of 
continuing this level of support and of what elements of the 
program, if any, are worth retaining.
    Thank you.
    [The prepared statement of Mr. Reuter follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.075
    
    [GRAPHIC] [TIFF OMITTED] T5125.076
    
    [GRAPHIC] [TIFF OMITTED] T5125.077
    
    [GRAPHIC] [TIFF OMITTED] T5125.078
    
    [GRAPHIC] [TIFF OMITTED] T5125.079
    
    Mr. Kucinich. Thank you very much, Professor, for your 
testimony.
    I want to thank each of the witnesses for their presence 
here. I would like any of you who would like to respond to this 
question and observation to do so.
    Director Kerlikowske testified earlier that wiping out all 
poppies in Afghanistan would have very little effect on drug 
availability in the United States, and he seemed to agree with 
Dr. Felbab-Brown's testimony that while eradication and 
interdiction has benefits, such as weakening drug trafficking 
organizations and instilling democratic reforms, it has little 
effect on domestic supply and consumption. And I would like you 
to respond to Director Kerlikowske's comments and address 
whether given this limited effect on reducing drug availability 
in the United States, should these types of international 
programs be considered as part of the Nation's drug policies 
and should these programs be funded.
    So Mr. Carnevale, let's start with you and go down the line 
if anyone wants to comment.
    Mr. Carnevale. I have pretty strong views about this topic. 
I have been studying this for about 20 years and worked at 
ONDCP and worked on drug budgets, and worked on two Andean 
strategies, one in the early 1990's and the one that started 
actually in 1998, but became law in 2000.
    I am quite convinced that spending money for eradication, 
especially aerial eradication, is not effective. I am quite 
convinced that spending money on----
    Mr. Kucinich. Why not?
    Mr. Carnevale. Because we have not seen any changes in 
potential cultivation. For example, in Colombia in this decade, 
ONDCP when it was counting how much money we were spending on 
Plan Colombia, reported from 2000 to 2005 that we had spent 
over $4 billion just on Plan Colombia. Over that same period, 
we saw cultivation increasing.
    Mr. Kucinich. Why is that? Explain to us how that happens.
    Mr. Carnevale. Why that happened? Well, I think it is 
because the money wasn't being used effectively. Director 
Kerlikowske talked about reductions in crime in Colombia, and 
in my mind, the money was being used more for institution 
building, strengthening the judicial system and so on. But the 
real point of that program was to reduce the amount of drugs 
coming into the United States from Colombia, and it had no 
effect on the amount of coca that was being grown by the 
farmers, and that was the whole point.
    So when I evaluate it with that outcome measure, I see no 
effect.
    Mr. Kucinich. Mr. Nadelmann.
    Mr. Nadelmann. Yes. I think what we have to realize, 
looking at this in the historical perspective, what you are 
essentially dealing with here with coca, with cocaine, heroin, 
opium, marijuana, whatever, are essentially global commodity 
markets, very much like coffee, sugar, tea, alcoholic 
beverages, precious metals, you name it.
    If one source is knocked out through eradication efforts or 
bad weather or a blight or drought, some place else will pop 
up. And this has been true for decades now. We cracked down on 
Turkey in the early 1970's under Nixon, and it popped up in 
Mexico, then it popped up in Southeast Asia, Southwest Asia. 
Same thing with coca cocaine, cracking down on Bolivia and 
Peru, now popping up in Colombia; marijuana the same thing.
    It seems to me what is missing, essentially, is any sort of 
strategic analysis or strategic planning. If you accept the 
fact that these drugs are going to be produced one way or 
another someplace in the world, and that therefore you need to 
manage that to minimize the harms associated with it, whether 
continuing with a prohibition policy or moving in the direction 
of regulation and decriminalization, that would be a strategic 
policy.
    Note how Director Kerlikowske responded to your question 
about Colombia and the efficacy. He pointed to some of the 
reductions in violence in Colombia and some of the increases in 
security, nothing really about a reduction of the significant 
flow of drugs; same thing in the exchange over Afghanistan.
    Mr. Kucinich. Thank you.
    Ms. Felbab-Brown.
    Ms. Felbab-Brown. If the measure is reducing consumption, 
supply side policies are not effective. However, I do believe 
there is a very important role for supply side to manage the 
spillover effects such as fueling violence, fueling corruption 
of political processes, undermining of judicial systems, and 
devastating legal economies or perpetuating marginalized 
populations and conditions of poverty.
    That is why I argue that both interdiction and eradication 
should be reconceptualized as drug operations, but rather be 
part of state-building measures that seek to strengthen the 
bonds between marginalized communities and states.
    Mr. Kucinich. Professor.
    Mr. Reuter. The history of the last 20 years of the cocaine 
and heroin trade are indicative of how much mobility there is 
in both production and trafficking. If you stick with cocaine, 
Colombia was a minor producer until the mid-1990's. Peru was 
the largest one and Bolivia was No. 3. Pressures on Peru and 
Bolivia, different pressures, led to a shift to Colombia, in 
part spread by the fact that Colombia had become so unstable it 
was not a very inviting environment.
    And you can see similar changes in the patterns of 
trafficking and production for heroin as well.
    Much of what we do as deliberate policy has a perfectly 
predictable effect on changing the way trafficking occurs. So 
you push down against the trade in South Florida in the early 
1980's and it moved to Mexico. Was that desirable? If you are 
Mexican, the answer is clearly no. If you are Floridian, it is 
yes.
    We can do a lot of that kind of thing. It is very 
uncomfortable to make those decisions out in the public, but 
the evidence is really striking that it is just moving the 
trade.
    Mr. Kucinich. Ms. Felbab-Brown, I note that you have a book 
coming up.
    Ms. Felbab-Brown. It is actually out already.
    Mr. Kucinich. Pardon?
    Ms. Felbab-Brown. It is out.
    Mr. Kucinich. It is out. OK, here is a chance to plug it. 
Do you get into the U.S. presence in Afghanistan and the 
relationship between that and the so-called war on drugs?
    Ms. Felbab-Brown. Very much so.
    Mr. Kucinich. And do you note that since the United States 
has been present occupying in Afghanistan, has drug production 
gone up or down?
    Ms. Felbab-Brown. It has gone significantly up if one uses 
the 1-year that Taliban suppressed the poppy. However, if one 
uses the history of all of the 1990's, production has only 
slightly gone up compared to what production was in the 1990's. 
The Taliban suppressed for only 1 year and it was not 
sustainable.
    Mr. Kucinich. But how much has it gone up if you look at 
the measure of an increase? Let's say since the United States 
has been there for now a period of several years, how much has 
it gone up, like from baseline United States comes in to where 
we are now?
    Ms. Felbab-Brown. Well, the baseline when the United States 
came in came just after when Taliban suppressed, at which time 
it was only a very few thousand hectares. Right now, the level 
of cultivation is around 130,000 hectares. So the increase has 
been significant, but that is a false baseline because it is 
not a sustainable baseline. If one looks at the 1990's, we are 
higher, but not very, very much higher than what it was in the 
1990's.
    Mr. Kucinich. What is the major drug export out of 
Afghanistan?
    Ms. Felbab-Brown. Sorry, what is the major export?
    Mr. Kucinich. Export, which kind of drug are you talking 
about?
    Ms. Felbab-Brown. It is more and more heroin. It used to be 
opiates, more broadly frequently opium, but more and more it is 
conversion into heroin.
    Mr. Kucinich. And what form is it in? I mean, how is it 
shipped? What form is it moved in?
    Ms. Felbab-Brown. It depends on what segments. Within much 
of Afghanistan, it is still moved as opium bricks, but it is 
increasing with distribution of refining and movement of 
laboratories, so there is more and more conversion on the farm 
and more and more is moved in the form of heroin. Once it 
leaves the borders, it is usually in the form of heroin.
    Mr. Kucinich. Well, I think the American people would find 
it difficult to believe that you could still have massive drug 
production going on in Afghanistan during a period of U.S. 
occupation. How do you describe that?
    Ms. Felbab-Browns. There are several reasons. The fact is 
that since the United States came into Afghanistan, structural 
drivers of opium poppy have not been addressed. As I mentioned 
before, the Taliban suppressed with the use of great military 
force, the repression against the population and production for 
1 year. But even the Taliban could not maintain it, and before 
the suppression of the Taliban, production was rising.
    Since then, there has been no addressing of security 
conditions that give rise to poppy cultivation or the 
structural economic drivers that drive poppy cultivation. It is 
only now that since the Obama administration has come to 
office, it has indicated it will focus on addressing these 
structural drivers, but we have to see that will in fact take 
place. Now resolving the security situation, we will not be 
able to address even the economic drivers.
    Let me also point out that Afghanistan is a very unique 
case since between one-third and one-half of the country's GDP 
depends on opium poppy or illicit drugs. We have not seen that 
anywhere in the history of the modern drug trade.
    Mr. Kucinich. Well, what was the amount that you say is 
exported now?
    Ms. Felbab-Brown. The amount of heroin being exported?
    Mr. Kucinich. Yes.
    Ms. Felbab-Brown. Well, I don't know the heroin numbers, 
but the opium numbers are about 6,000 metric tons of opium.
    Mr. Kucinich. Six thousand metric tons.
    Ms. Felbab-Brown. Which is about twice as much as we 
believe is the global consumption, but these numbers are----
    Mr. Kucinich. What would that look like in terms of would 
that fill this room or more or what?
    Ms. Felbab-Brown. I cannot really say. It would be a lot, 
probably.
    Mr. Kucinich. Hold on a minute. I will come to you in a 
minute.
    How do they get this out? The United States controls the 
air. The United States has border presence. How do they get 
this out?
    Ms. Felbab-Brown. Well, the United States does not control 
much of the territory. The borders are very long and very 
porous. You could ask a similar question of how does tremendous 
amount of drugs enter the United States.
    Mr. Kucinich. Who is moving these drugs out of Afghanistan? 
Is it al Qaeda?
    Ms. Felbab-Brown. It is very diverse. It is crime 
organizations in Afghanistan.
    Mr. Kucinich. It is not the Taliban, though, right?
    Ms. Felbab-Brown. Some of it is the Taliban, but far from 
all of it is the Taliban.
    Mr. Kucinich. So the Taliban is involved in the drug 
traffic as well?
    Ms. Felbab-Brown. Very much so, very deeply, as it was in 
the 1990's.
    Mr. Kucinich. And so is Al Qaeda involved in the drug 
trafficking?
    Ms. Felbab-Brown. There is a big controversy surrounding 
that. All the evidence indicates only very tangential links. 
And certainly in the early 1990's, Al Qaeda took a decision not 
to participate in the drug trade, even as the Taliban was 
deeply involved. It is not clear that decision still holds.
    Mr. Kucinich. Do you in your book do you cover the 
possibility of the government of Afghanistan and officials 
within the Afghan government being involved in the drug trade?
    Ms. Felbab-Brown. Yes, there is very strong evidence that 
from the lowest levels to very high levels, officials of the 
Afghan government, officials of the Afghan National Police, 
especially, are deeply involved in aspects of the drug trade 
and drug cultivation, which is not surprising given that half 
of the country's GDP comes from drugs. Consequently, political 
arrangements are very much linked to the opium trade.
    Mr. Kucinich. So is Afghanistan fairly, then, described as 
a narco-state, given the fact that they are producing all these 
drugs and depend on it for----
    Ms. Felbab-Brown. I don't like to use such labels. I don't 
think it is useful for policy. I don't think there are any 
definitions. But certainly, the intensity of the problem is far 
greater than we have seen anywhere in the world since World War 
II.
    Mr. Kucinich. What should the United States be doing in 
Afghanistan with respect to dealing with this tremendous 
outflow of drugs during the time that the United States has a 
presence there? What should we be doing?
    Ms. Felbab-Brown. The No. 1 factor is to establish 
security. Without establishing security, no counter-narcotics 
policy, whether it is eradication or rural development, will be 
effective. Once security is established, or as security is 
being established, then the focus needs to be on building a 
state that is capacious and that is also accountable to its 
people.
    Mr. Kucinich. But if there is a state that depends on its 
income for this drug production, what hope is there that any 
kind of security would eradicate the drug----
    Ms. Felbab-Brown. Security is the necessary requisite, but 
it is not sufficient. The other component then needs to be 
building state that can generate legal livelihoods, that can 
assist in generating legal livelihoods, and that can also 
generate access to justice and have effective law enforcement. 
This is inevitably a very long-term process. Given the scale of 
institutional underdevelopment in Afghanistan and the scale of 
the drug problem, there can be no hope that it can be 
accomplished----
    Mr. Kucinich. How many years has Afghanistan been a 
significant international player in the production of drugs, 
whether we are talking about opium or heroin?
    Ms. Felbab-Brown. Since the mid-1990's, it is the No. 1 
country in the world.
    Mr. Kucinich. OK.
    Mr. Nadelmann, you had something you wanted to say?
    Mr. Nadelmann. Yes. I just wanted to try to put this in 
some historical perspective, because while Afghanistan is in 
some respects unique, as Vanda mentioned, there have been 
hearings in the past that focused on Burma as producing 80 
percent, or Turkey or Mexico or Colombia, what have you. And so 
it could well be the case that in 10 or 15 or 20 years, 
Afghanistan is a non-issue and it is now someplace in Africa or 
elsewhere in Central Asia or back elsewhere.
    I think it is important to realize this. If the United 
States or anybody, or the mullahs, could suddenly wave a wand 
and, poof, no more opium or heroin coming out of Afghanistan, 
what would be the implications for the American drug problem, 
the global drug problem, for security? You know that so long as 
there is a demand, there will be a supply. You know that if 
Afghanistan was taken out, it would emerge back in the 
northwest frontier of Pakistan, back in Burma, back closer to 
U.S. borders.
    Peter Reuter mentioned this as well. We don't know where, 
and it could well be that the disruptive implications in terms 
of U.S. economic and security interests and in terms of the 
economic and human rights interests of others would be even 
worse, would be even more badly impaired.
    So I think that the answer with Afghanistan is not to focus 
on reducing the supply of opium from Afghanistan. It is to 
focus, as Vanda suggested, on ensuring the stability of 
Afghanistan and looking at it from the perspective of Afghan 
security, NATO and U.S. interests.
    We can talk all we want, of course, about economic 
development being the answer to reducing drug supplies, but 
America is one of the most economically developed countries in 
the world and that hasn't stopped us from being a major 
producer of marijuana and methamphetamine and a host of other 
illicit drugs as well.
    Mr. Kucinich. Why is there such a demand? What is your 
opinion or considered opinion on why there is such a high 
demand for drugs in this country, let's say?
    Mr. Nadelmann. We are not that dramatically off from other 
countries. We have somewhat higher rates of use than, for 
example, European countries, but Pakistan and Iran have a 
higher per capita use of opium and heroin than does the United 
States. And some European countries use higher rates as well.
    Let's face it, there has never been a drug-free society in 
human history, except maybe the Eskimos because they couldn't 
grow anything. But apart from them, there has never really been 
one. There is never going to be one. There is going to be 
consumption of alcohol, tobacco products, caffeinated 
beverages, you name it.
    The real question in the long term is not how do we keep 
trying to build a moat between all these drugs and ourselves or 
our children. The real question is how do we come up with 
sensible ways of learning how to live with this reality so that 
we reduce the negative consequences of drug use and of our 
prohibitionist policies as much as possible.
    Mr. Kucinich. In your testimony, what you have said is that 
there has been a failure to adequately evaluate drug policies 
as to how they can meet the challenge of drug use.
    Mr. Nadelmann. Yes. Harm reduction refers on the one hand 
to needle exchange programs. Harm reduction can be simply 
defined as those policies and interventions that seek to reduce 
the negative consequences of drug use by and among those people 
who are unable or unwilling to stop today.
    But you can also define harm reduction in policy terms, as 
those that seek to reduce the negative consequences of drug use 
and the negative consequences of our drug policies. That is 
where I think the criteria need to go. That is where I would 
encourage this committee to push or mandate that ONDCP and the 
Obama administration move in that direction.
    Mr. Kucinich. I thought it was very interesting when Mr. 
Kerlikowske would not want to get into a description of harm 
reduction. I wonder what the AMA would say to that, since 
essentially the father of medicine's first rule is do no harm.
    Mr. Nadelmann. Yes, that is exactly right. It is 
interesting. In the Commission on Narcotic Drugs and the 
international channels, the Europeans sort of hear Director 
Kerlikowske say this and they sort of roll their eyes. They 
think it is foolish. But it is not just the Europeans.
    I was in Kuala Lumpur, Malaysia 2 years ago listening to a 
speech by the deputy drug czar of Malaysia. They have very 
harsh policies. And he said we have three components of our 
national drug control strategies: supply reduction, demand 
reduction, and harm reduction.
    Now, if you could have people both in Europe, but also 
people in Asia who are saying this thing, I am baffled at why 
ONDCP is unable to use this language. Note, by the way, that 
the deputy drug czar, Tom McLellan, did begin to embrace the 
language of harm reduction some months ago, but appears to have 
been repudiated in the interim.
    Mr. Kucinich. Dr. Carnevale, why do you believe that the 
administration's rhetoric about moving to a public health model 
view of drug control has not been matched with changing funding 
priorities? For example, is it attributable to a lack of 
authority of ONDCP or a lag time in getting the right people in 
place? Do you believe with ONDCP's current structure and 
current political climate that they have the institutional and 
political wherewithal to change drug budget policies and 
priorities?
    Mr. Carnevale. That is a very good question. Let me start 
by saying quite frankly when I saw the budget that did come 
out, I was really surprised that we did not see large increases 
in demand reduction and very large cuts and decreases in supply 
reduction. And I was hoping that would happen.
    With regard to ONDCP's authorities, it does have the legal 
authorities to shape a budget, make recommendations independent 
of the OMB, directly to the President. And my sense is that in 
the new administration, when the Director came on board, there 
was a reshuffling of the deck chairs. And the loss of Cabinet 
status, to me, is one issue that I think is playing into this.
    Second, I think the fiscal climate, from what I can hear 
from my friends at OMB, if I can call them friends given the 
disappointment I have with the budget, is that this simply was 
not a lot of money, but I kept saying that is no excuse for not 
cutting ineffective programs on the supply side.
    I do think, though, ONDCP has the authorities. The issue is 
whether it uses them effectively. And I am at this point 
hopeful that at least the Director can do something more 
positive to shift resources.
    Mr. Kucinich. Then let me ask you, and I would like each of 
the panelists to respond to this question. Looking forward to 
the reauthorization of the ONDCP, what institutional changes do 
you believe should be made to ensure that it has the authority 
to truly affect policy formulation and spending? What would you 
recommend? Let's start with Mr. Carnevale and go down.
    Mr. Carnevale. One of the concerns I have is the structure 
of the agency itself is now flawed. It was built and designed 
back in 1988. The Congress designed an agency to fight a 
cocaine problem, stopping drugs from coming into the United 
States. The Reagan administration budget then had a budget that 
was close to 80 percent focus on supply reduction because it 
viewed cocaine as the problem in America.
    We have an Office of Demand Reduction, Supply Reduction, 
and there was an Office of State and Local Affairs that was 
designed or intended to help spread that policy to State and 
local governments, so it would truly be a national drug control 
policy.
    The current structure with the Office of Supply Reduction I 
think needs to be changed. It continues to dominate the scene 
in terms of what is going on with the drug budget 
inappropriately. And I think if we are moving more toward a 
public health model, we should consider that structure and 
design.
    It doesn't make sense to me that we have five political 
Senate-confirmed appointees in an agency of about 100 people, 
one for each of these areas--demand, supply, State and local, 
and of course, the Director. I would reconsider that, and I 
would want supply reduction programs maybe to be viewed more of 
a program office, not headed up with such a high level 
official.
    Mr. Kucinich. Mr. Nadelmann.
    Mr. Nadelmann. Yes, I would take one lesson for ONDCP from 
the United Nations Office of Drugs and Crime, the UNODC, which 
has not been notably successful in its work, but to the extent 
it has been, it is because it developed its own branch for harm 
reduction.
    The most dynamic and successful aspect of UNODC has been 
that branch, and I would encourage ONDCP to create the position 
of a Deputy Director for Harm Reduction. It is not sufficient 
to simply rely on people, for example the two very talented 
former New York City Health Commissioners who now chair the CDC 
and FDA, Peggy Hamburg and Tom Frieden. There needs to be more 
of a dedicated presence within ONDCP.
    I also think that, second, building in a capacity for 
independent evaluation, as well as some element to try to push 
forward on independent strategic thinking that has been notably 
absent, not just for ONDCP, but to my knowledge also within the 
State Department, within the defense community and within the 
intelligence community.
    There needs to be an element within the U.S. Government, 
and it might appropriately be situated within ONDCP so long as 
it is to some extent politically independent, to encourage more 
strategic thinking about policy options.
    Mr. Kucinich. Thank you.
    Ms. Felbab-Brown.
    Ms. Felbab-Brown. If ONDCP is to remain in the role of 
being the national agency on counter-narcotics policy, it needs 
to not only have the standing comprehensive approach 
domestically but also internationally. Consequently, 
interagency working groups need to be mandated in the manner of 
the Director's choice, including Defense, State, Justice, etc., 
all the other agencies so that policy is set on the basis of 
what truly is in the U.S. national interest and would recognize 
the effects on communities and States abroad.
    I would also stress Dr. Nadelmann's line that this 
committee, more broadly Congress should mandate that 
considering unintended consequences, secondary effects be part 
of regular policy process on which ONDCP and other agencies 
report.
    Mr. Reuter. The premise of your question is that ONDCP 
should be reauthorized, and I would hope that you would examine 
that premise before moving ahead.
    This is a problem which was acute in the late 1980's and is 
now not acute. It is a substantial, but routinized problem. If 
it is to be continued, then I do think that the questions that 
the committee members posed today to Director Kerlikowske were 
very much about cost-effectiveness and in general assessing 
programs that are being carried out.
    ONDCP is uniquely placed to do that. Dividing an office, as 
it is now, into supply reduction and demand reduction creates 
units that are rather defensive about their domains. There is 
an Office of the Chief Scientist, CTAC, which in principle 
could take on this evaluation responsibility and I would hope 
that you would strengthen its authorities and give it a clearer 
mandate to do just that.
    Mr. Kucinich. I want to thank each one of the witnesses for 
their presence before this subcommittee. There has been some 
very positive testimony and some suggestions that this 
subcommittee will act on, including exploring the necessity of 
an independent analysis of the drug policies.
    As we move into the reauthorization, we certainly need to 
be able to determine the question of efficacy and 
effectiveness. You have raised some very important questions. 
This has been one of the best panels testifying on an issue 
that has some overarching importance in so many areas of the 
American economy and society.
    So I appreciate your presence here. I would ask you to be 
responsive to any followup questions that Members may have in 
writing, and we will certainly keep all of you posted on the 
future hearings which we will have. This subcommittee does have 
legislative authority in this area and we are going to be 
taking very seriously our responsibility with respect to the 
reauthorization.
    I am Dennis Kucinich, Chair of the Domestic Policy 
Subcommittee of the Committee on Government Oversight and 
Reform. Today's hearing has been ``ONDCP's Fiscal Year 2011 
National Drug Control Budget: Are We Still Funding the War on 
Drugs?''
    We have had a distinguished panel, the first panel and the 
second panel. I want to thank all of the individuals here for 
participating, and the subcommittee will continue our work in 
this area.
    Now, this hearing stands adjourned. Thank you.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T5125.080
    
    [GRAPHIC] [TIFF OMITTED] T5125.081
    
    [GRAPHIC] [TIFF OMITTED] T5125.082
    
    [GRAPHIC] [TIFF OMITTED] T5125.083
    
    [GRAPHIC] [TIFF OMITTED] T5125.084
    
    [GRAPHIC] [TIFF OMITTED] T5125.085
    
    [GRAPHIC] [TIFF OMITTED] T5125.086
    
    [GRAPHIC] [TIFF OMITTED] T5125.087
    
    [GRAPHIC] [TIFF OMITTED] T5125.088
    
    [GRAPHIC] [TIFF OMITTED] T5125.089
    
    [GRAPHIC] [TIFF OMITTED] T5125.090
    
    [GRAPHIC] [TIFF OMITTED] T5125.091
    
    [GRAPHIC] [TIFF OMITTED] T5125.092
    
    [GRAPHIC] [TIFF OMITTED] T5125.093
    
    [GRAPHIC] [TIFF OMITTED] T5125.094
    
    [GRAPHIC] [TIFF OMITTED] T5125.095
    
    [GRAPHIC] [TIFF OMITTED] T5125.096
    
    [GRAPHIC] [TIFF OMITTED] T5125.097
    
    [GRAPHIC] [TIFF OMITTED] T5125.098
    
    [GRAPHIC] [TIFF OMITTED] T5125.099
    
    [GRAPHIC] [TIFF OMITTED] T5125.100
    
    [GRAPHIC] [TIFF OMITTED] T5125.101
    
    [GRAPHIC] [TIFF OMITTED] T5125.102
    
    [GRAPHIC] [TIFF OMITTED] T5125.103
    
    [GRAPHIC] [TIFF OMITTED] T5125.104
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
